<html>
<title> - MARK-UP ON H.RES. 292, A RESOLUTION EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES REGARDING THE REFERENDUM IN EAST TIMORE, CALLING ON THE GOVERNMENT OF INDONESIA TO ASSIST IN THE TERMINATION OF THE CURRENT CIVIL UNREST AND VIOLENCE IN EAST TIMORE, AND SUPPORTING A UNITED NATIONS SECURITY COUNCIL-ENDORSED MULTINATIONAL FORCE FOR EAST TIME</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 MARK-UP ON H.RES. 292, A RESOLUTION EXPRESSING THE SENSE OF THE HOUSE 
OF REPRESENTATIVES REGARDING THE REFERENDUM IN EAST TIMORE, CALLING ON 
THE GOVERNMENT OF INDONESIA TO ASSIST IN THE TERMINATION OF THE CURRENT 
   CIVIL UNREST AND VIOLENCE IN EAST TIMORE, AND SUPPORTING A UNITED 
  NATIONS SECURITY COUNCIL-ENDORSED MULTINATIONAL FORCE FOR EAST TIME

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                               H.Res. 292

                               __________

                           SEPTEMBER 15, 1999

                               __________

                           Serial No. 106-56

                               __________

    Printed for the use of the Committee on International Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 59-861 CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARK SANFORD, South Carolina             Samoa
JOHN McHUGH, New York                MATTHEW G. MARTINEZ, California
RICHARD BURR, North Carolina         SHERROD BROWN, Ohio
PAUL GILLMOR, Ohio                   ROBERT WEXLER, Florida
DONALD A. MANZULLO, Illinois         JIM DAVIS, Florida
EDWARD R. ROYCE, California          EARL POMEROY, North Dakota
JOHN COOKSEY, Louisiana              GARY L. ACKERMAN, New York
                                     ALCEE L. HASTINGS, Florida
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate


                            C O N T E N T S

                              ----------                              

                                APPENDIX

                                                                   Page

Bill:
H.Res. 292.......................................................     2



 MARK-UP ON H.RES. 292, A RESOLUTION EXPRESSING THE SENSE OF THE HOUSE 
OF REPRESENTATIVES REGARDING THE REFERENDUM IN EAST TIMORE, CALLING ON 
THE GOVERNMENT OF INDONESIA TO ASSIST IN THE TERMINATION OF THE CURRENT 
   CIVIL UNREST AND VIOLENCE IN EAST TIMORE, AND SUPPORTING A UNITED 
  NATIONS SECURITY COUNCIL-ENDORSED MULTINATIONAL FORCE FOR EAST TIME

                              ----------                              


                     Wednesday, September 15, 1999

                  House of Representatives,
              Subcommittee on Asia And the Pacific,
                      Committee on International Relations,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to notice, at 1:20 p.m., in 
room 2172, Rayburn House Office Building, Hon. Doug Bereuter, 
Chairman of the Subcommittee, presiding.

    Mr. Bereuter. The Subcommittee meets today in open session 
to first consider House Resolution 292, a resolution regarding 
the referendum on East Timor and its tragic aftermath, and 
supporting a United Nations Security Council-endorced force for 
East Timor.
    [The exact Bill language of H. Res. 292 follows.]
106th CONGRESS
1st Session
                              H. RES. 292

  Expressing the sense of the House of Representatives regarding the 
  referendum in East Timor, calling on the Government of Indonesia to 
 assist in the termination of the current civil unrest and violence in 
 East Timor, and supporting a United Nations Security Council-endorsed 
                  multinational force for East Timor.

                                 ______
                                 

                    IN THE HOUSE OF REPRESENTATIVES

                           September 14, 1999

 Mr. Bereuter (for himself, Mr. Gilman, Mr. Lantos, Mr. Gejdenson, Mr. 
   Hastings of Florida, Mr. Capuano, Mr. Goss, Mr. Faleomavaega, Mr. 
  Greenwood, Ms. DeLauro, Mr. Crowley, Mr. Pombo, Mr. Underwood, Mr. 
  Moran of Virginia, Mr. Bilbray, Mr. Hall of Ohio, Mr. Ackerman, Mr. 
  Smith of New Jersey, and Mr. Brown of Ohio) submitted the following 
   resolution; which was referred to the Committee on International 
                               Relations

                                 ______
                                 

                               RESOLUTION

  Expressing the sense of the House of Representatives regarding the 
  referendum in East Timor, calling on the Government of Indonesia to 
 assist in the termination of the current civil unrest and violence in 
 East Timor, and supporting a United Nations Security Council-endorsed 
                  multinational force for East Timor.

Whereas on May 5, 1999, the Governments of Portugal and Indonesia and the 
United Nations concluded an historic agreement intended to resolve the 
status of East Timor through a popular consultation based upon a universal, 
direct, and secret ballot;

Whereas the agreement gave the people of East Timor an opportunity to 
accept a proposed special autonomy for East Timor within the unitary 
Republic of Indonesia or reject the special autonomy and opt for 
independence;

Whereas on August 30, 1999, 98.5 percent of registered voters participated 
in a vote on the future of East Timor, and by a vote of 344,580 to 94,388 
chose the course of independence;

Whereas after the voting was concluded, violence intensified significantly 
in East Timor;

Whereas the declaration by the Government of Indonesia of martial law in 
East Timor has failed to quell the violence;

Whereas it has been reported that hundreds of people have been killed and 
injured since the violence began in East Timor;

Whereas it has been reported that as many as 200,000 of East Timor's 
780,000 residents have been forced to flee East Timor;

Whereas it has been reported that East Timor militias are controlling the 
refugee camps in West Timor, intimidating the refugees and denying access 
to the United Nations High Commissioner for Refugees, relief agencies, and 
other humanitarian nongovernmental organizations;

Whereas it has been reported that a systematic campaign of political 
assassinations that has targeted religious, student, and political leaders, 
aid workers, and others has taken place;

Whereas the compound of the United Nations Mission in East Timor (UNAMET) 
was besieged and fired upon, access to food, water, and electricity was 
intentionally cut off, and UNAMET personnel have been killed, forcing the 
closure of UNAMET in East Timor;

Whereas Catholic leaders and lay people have been targeted to be killed and 
churches burned in East Timor;

Whereas the international community has called upon the Government of 
Indonesia to either take immediate and concrete steps to end the violence 
in East Timor or allow a United Nations Security Council-endorsed 
multinational force to enter East Timor and restore order;

Whereas on September 9, 1999, the United States suspended all military 
relations with Indonesia as a result of the failure to quell the violence 
in East Timor; and

Whereas on September 12, 1999, Indonesian President B.J. Habibie announced 
that Indonesia would allow a United Nations Security Council-endorsed 
multinational force into East Timor: Now, therefore, be it

  Resolved, That the House of Representatives--
          (1) congratulates the people of East Timor on their exemplary 
        participation in the August 30, 1999, popular consultation;
          (2) commends the professionalism, determination, and courage 
        of the United Nations Mission in East Timor (UNAMET) personnel 
        in support of the August 30, 1999, vote on the future of East 
        Timor;
          (3) recognizes the overwhelming expression of the people of 
        East Timor in favor of independence from Indonesia;
          (4) condemns the violent efforts of East Timor militias and 
        elements of the Indonesian military to overturn the results of 
        the August 30, 1999, vote;
          (5) notes with grave alarm the failure of the Government of 
        Indonesia, despite repeated assurances to the contrary, to 
        guarantee the security of the people of East Timor and further 
        notes that it is the responsibility of the Government of 
        Indonesia to restrain elements of the Indonesian military and 
        paramilitary forces and restore order in East Timor;
          (6) calls upon the Government of Indonesia to recognize its 
        responsibilities as a member of the United Nations and a 
        signatory to the Universal Declaration of Human Rights to 
        cooperate with appropriate United Nations authorities in the 
        restoration of order in East Timor;
          (7) urges the Government of Indonesia to allow unrestricted 
        access to refugees and displaced persons in West Timor and to 
        guarantee their safety;
          (8) calls upon the Government of Indonesia to hold 
        accountable those responsible for the violence and human rights 
        abuses and atrocities in East Timor;
          (9) notes with approval the decision of the United States to 
        suspend military relations with, and the sale of any military 
        weapons or equipment to, the Government of Indonesia until 
        order is effectively restored;
          (10) expresses approval of Indonesia's belated decision to 
        allow a United Nations Security Council-endorsed multinational 
        force into East Timor and strongly urges Indonesia to accept 
        the rapid deployment of this force and to cooperate fully 
        without preconditions on the composition and deployment of this 
        force;
          (11) expresses support for a rapid and effective deployment 
        throughout East Timor of the United Nations Security Council-
        endorsed multinational force;
          (12) urges that the United States consider additional 
        measures to end the current civil unrest and violence in East 
        Timor, including the suspension of bilateral and international 
        financial assistance (except for humanitarian assistance and 
        assistance designed to promote the development of democratic 
        institutions) to the Government of Indonesia until such time as 
        it has demonstrated cooperation with respect to the deployment 
        of a multinational force in East Timor and such force is fully 
        deployed, UNAMET is fully operational in East Timor, refugees 
        and displaced persons are able to return to East Timor safely, 
        and order and respect for human rights are restored in East 
        Timor;
          (13) expresses approval of United States logistical and other 
        technical support for deployment of a multinational force for 
        East Timor;
          (14) commends Australia for its readiness to lead the 
        multinational force for East Timor and welcomes the 
        participation of other nations in this force;
          (15) urges the Indonesian People's Consultative Assembly to 
        expeditiously ratify the vote of August 30, 1999, in East Timor 
        and to otherwise speed the transition to full independence for 
        East Timor; and
          (16) recognizes that an effective United States foreign 
        policy for this region requires both an effective near-term 
        response to the ongoing violence in, and progress toward 
        independence for, East Timor and a long-term strategy for 
        supporting stability, security, and democracy in Indonesia and 
        East Timor.
                               <greek-d>
    The Clerk will report the resolution.
    The Clerk. H.R. 292, expressing the sense of the House of 
Representatives regarding the referendum in East Timor, calling 
on the Government of Indonesia to assist in the termination of 
the current civil unrest and violence in East Timor, and 
supporting a United Nations Security Council-endorsed 
multinational force for East Timor.
    Mr. Bereuter. Without objection, further reading of the 
resolution will be dispensed with, printed in the record in 
full, and open for amendment. Before we begin the formal 
process of considering this resolution, I have just a few 
comments. I will then recognize the Ranking Member and other 
Members of the Subcommittee, if they wish to be heard, and any 
Member of the Full Committee for any brief comments they wish 
to make. I do, however, remind my colleagues that we do have 
two panels ready to testify for our hearing on Taiwan and that 
we examined the East Timor issue extensively in the 
Subcommittee last week. Beyond that, I think we are intending 
to mark this up in Full Committee tomorrow, and I believe at 
the moment it is the only item on the agenda.
    With that in mind and with the Taiwan hearing awaiting us, 
I would say the resolution was introduced only yesterday, 
referred to the Asia Pacific Subcommittee, sponsored by myself; 
the distinguished Chairman of the International Relations 
Committee, Mr. Gilman; the distinguished Ranking Democrat 
Member of the Subcommittee, Mr. Lantos; the Ranking Democratic 
Member of the Full Committee, Mr. Gejdenson; and other Members 
of the Committee, including Mr. Hastings, Mr. Smith of New 
Jersey, Mr. Faleomavaega, Mr. Ackerman, and Mr. Brown of Ohio, 
as well as other members on both sides of the aisle.
    Since the election on August 30th in East Timor, in which 
an overwhelming 78 percent-plus of the population voted against 
the autonomous position and, in effect, then for a pro-
independence vote, this territory has been enveloped by 
violence and mayhem as pro-integration militia and elements of 
the Indonesian military have sought to overturn the people's 
choice for independence through cold-blooded killings, massive 
destruction of infrastructure and property, and the forced 
dislocation of innocent East Timor people. I think the 
International Relations Committee, and certainly this Member of 
the Committee, believes this must stop.
    Despite repeated assurance to the contrary, the Indonesian 
Government has failed miserably in its responsibilities to 
guarantee the security of the people of East Timor. Only now, 
very belatedly and under duress from significant international 
pressure, has the Indonesian Government accepted a United 
Nations Security Council-endorsed multinational force.
    I am encouraged that an agreement was reached late last 
night in New York for the deployment of the force. Given the 
human tragedy in East Timor, this force needs to be deployed as 
expeditiously as possible and without any Indonesian 
obstructions.
    It is now the United Nation's responsibility, in my 
judgment, to provide a safe and secure transition beyond that 
to independence. Australia should absolutely be commended and 
supported in its leadership and willingness to lead this 
multilateral force, and the United States should support the 
force's deployment with logistical and other technical support.
    I was in Australia at the time of the vote and a few days 
thereafter met with the Australian defense minister and the 
foreign minister and discussed the elections in detail. I just 
have to tell you I think the Australians are moving in an 
admirable fashion, and I think we should do everything we can 
to convey to the Indonesians that we will not tolerate violence 
against Australians in Indonesia or in East Timor. They are 
doing important work as they have often done for this country 
and for the international community.
    Less than a week ago, this Subcommittee, meeting jointly 
with its Senate Foreign Relations Committee counterpart, held a 
very extensive and thorough hearing on the situation in East 
Timor and the U.S. reaction to it at that point. We believe we 
have covered this situation in depth.
    This a bipartisan resolution. It is a product of many with 
input from myself, Chairman Gilman, Ranking Members Lantos and 
Gejdenson, and the other members listed as cosponsors from this 
Subcommittee, plus others, like Mr. Capuano of Massachusetts 
and Mr. Goss of Florida.
    Indeed, I hope we can move right to the pending resolution 
without a lengthy debate and amendatory process, especially 
given the need to begin the Taiwan hearing. As I mentioned, we 
will be taking this subject up in the Full Committee if the 
Subcommittee chooses to act.
    I now call on the distinguished Ranking Member of the 
Subcommittee, Mr. Lantos, for any comments he might like to 
make.
    Mr. Lantos. Thank you, Mr. Chairman. I will be very brief. 
Let me commend you for presenting this resolution, of which I 
am pleased to be a cosponsor. I think it is important to 
underscore that this is a bipartisan resolution enjoying broad 
support in the Committee, and I am sure in the House.
    Let me also say one additional thing: it seems to me that 
with Kosovo earlier this year and with Timor at the moment, it 
is long overdue for Members of this body and for the 
Administration to understand that human rights issues are not 
peripheral, accidental marginal issues in the field of U.S. 
foreign policy. But as it has been demonstrated in the case of 
Kosovo, which could have been prevented years ago had the 
Western world displayed strength and determination to protect 
the human rights of Kosovar Albanians, had the western world 
demonstrated strength and commitment with respect to the human 
rights of the Catholic Timorese, we would not be in this 
situation.
    I would merely like to make a plea, both to my colleagues 
and to the Administration, to recognize that on issue after 
issue, we are confronted with major crisis involving, as in the 
case of Kosovo, large-scale military action, because at an 
embryonic stage of the conflict, the human rights concerns were 
swept under the rug, remained unaddressed, and viewed as 
peripheral concerns of do-gooders in the Congress of the United 
States. This has become--and it will be even more so in the 
21st century--a central issue in the conduct of U.S. foreign 
policy.
    It will have to be a central issue in the conduct of NATO's 
affairs, and it will have to be central to the conduct of the 
foreign policy of all civilized nations. It is easy to dismiss 
the persecution of the Bahai in Iran as a small religious group 
about which we know little, and then realize that sooner or 
later the problem escalates and mushrooms and steps will need 
to be taken.
    While I am very pleased to cosponsor this resolution, which 
I think will be voted overwhelmingly by our colleagues in the 
House, it is important to go behind the resolution per se and 
not to look at Kosovo and East Timor as two distinct separate 
unrelated problems, one in the Balkans, the other in Southeast 
Asia. They both came about because the civilized world with the 
military capability chose to look away early on. It did not 
deal with the issue early on. Pressure should have been put on 
the Indonesian government a long time ago not to allow this 
outrage to unfold. Pressure should have been put on Milosevic 
in 1991 not to allow the Kosovo situation to get out of hand.
    Now with the example of these two cases in very different 
parts of the world, I hope there will be a willingness to look 
for a pattern. The pattern is there, in an age of instantaneous 
mass communication, such outrages as the one in Kosovo and the 
one in East Timor are not tolerated by the civilized community. 
Therefore, governments are forced into action. If we want to 
prevent military action, we have to deal with human rights 
violations early on.
    I strongly again commend you, Mr. Chairman, for crafting 
this resolution.
    Mr. Bereuter. Thank you very much, Mr. Lantos. I was 
disturbed by remarks made by a senior member of the 
Administration that--and I think I should comment briefly on 
that--it is not in the middle of Europe; and, therefore, we 
should be more reluctant to become involved. I will not specify 
that person, but I think it reinforces all the wrong 
perceptions that we are Eurocentric in our views. What happens 
in Asia is just as important to Americans--our national 
interests and our concern about human rights--as what happens 
in the center of Europe. I think we might have bipartisan 
support for that. We will go on and let this Subcommittee 
stand, with that kind of view.
    Are there other Members who wish to discuss the East Timor 
resolution?
    Chairman Gilman is recognized.
    Mr. Gilman. I just want to commend Chairman Bereuter for 
bringing this measure up in a timely manner. We are all 
concerned about the violations of human rights and hostility 
that is taking place in East Timor, and I think adopting this 
resolution at this time is certainly appropriate and hopefully 
will help bring peace to that part of the world.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Chairman Gilman. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I do commend you 
and certainly am honored to be a cosponsor of this resolution.
    Mr. Chairman, although the Timorese struggle for self-
determination has received much publicity, I would submit that 
scant attention has been paid to the people of West Papua New 
Guinea, who have similarly struggled to throw off the yoke of 
Indonesian colonialism. Like East Timor, Indonesia military 
forces took West New Guinea by force in 1963. In a pathetic 
episode, the United Nations in 1969 sanctioned a fraudulent 
referendum, where only 1,000 delegates, hand picked and paid 
off by Indonesia, were permitted to participate in this so-
called independence vote. The rest of the over 800,000 West 
Papua New Guinea people absolutely had no voice in the 
undemocratic process.
    Like East Timor, where 200,000 East Timorese were massacred 
and killed, at that military takeover by the Indonesian 
military, this was even before the struggle that these people 
have taken for 24 years now, Mr. Chairman, the Indonesian 
military had been brutal just as much. Reports estimate that 
between 100,000 to 300,000 West Papua and New Guineans have 
died or simply vanished in the hands of the Indonesian 
military.
    Mr. Chairman, while we search for justice and peace in East 
Timor, I submit we should not forget the violent tragedy that 
continues to play on West Papua and New Guinea at this time.
    Thank you, Mr. Chairman.
    Mr. Bereuter. I thank the gentleman for his statement. Are 
there other members who wish to be heard on the East Timor 
resolution?
    The gentleman from California, Mr. Rohrabacher is 
recognized.
    Mr. Rohrabacher. Mr. Chairman, I rise in support of this 
resolution, and I would like to associate myself with the 
remarks of Mr. Lantos, who again presented to us a very 
thoughtful analysis of some of the basic decisions that we have 
to make in foreign policy.
    Let me just say that Mr. Lantos' remarks in suggesting that 
if we do not heed people's human rights and the issues of those 
human rights that we have to pay a penalty later on in terms of 
military action I think is correct. I think that where that is 
most demonstrable, however, is in our policy toward the 
mainland of China. I will say when you are talking about Tibet 
and you are talking about the persecution in East Turkestan and 
the overall human rights situation with different religious 
groups that are being oppressed and other organizations in 
communist China, we will pay a price if we do not stands up for 
the principles which our Founding Fathers believed America was 
all about.
    I do support that. In the case of East Timor, for many 
years we did close our eyes to that, and perhaps some of these 
other abuses that Congressman Faleomavaega just detailed. The 
cold war is over. It is time for the United States to realize 
we don't need to close our eyes to human rights abuses because 
of some strategic fight with the Soviet Union. That was 
something we had to consider in the past. But now it is time 
for America to return to its democratic roots and to those 
fundamentals that make America and the United States of America 
a different place than other countries of the world. Our 
country was founded on these principles of liberty and justice, 
and I think it must play a role in our decisions in foreign 
policy.
    I am very proud to be part of this resolution on East 
Timor. But one final thought, Mr. Chairman, and that is because 
we do stand for human rights and democracy and justice does not 
mean we are the policemen of the world. It does not mean we 
have to send our troops in and expend our treasury and our 
blood in every part of the world where tyranny threatens 
innocent people. But instead we should at least be willing to 
help those people struggle for themselves. In the case of 
Kosovo, we didn't bother to support the people of Kosovo over 
the years when they could have fought their own battle, and 
eventually we had to send our troops in. The same with Bosnia.
    Let me say in terms of East Timor, I support this 
resolution because the United States is not the lead player in 
this intervention for democracy. As should be the case, local 
and regional powers are committing their troops, and the United 
States is there in a support role, rather than having to play 
the lead role and rather than be the one that has to put out 
all the money.
    So as far as I am concerned, this East Timor example of 
what we are doing now is a good example of what we should be 
doing, and that is supporting regional powers like Australia, 
as we should have done in the case of Kosovo, supporting the 
Europeans, rather than trying to play the lead role.
    With that--I think with a policy like that we will have the 
support of the American people. If we try to be the policemen 
of the world and try to be the one that is going to take on the 
expense for these problems all over the world, I don't think 
the American people will bear that burden very long.
    Thank you very much.
    Mr. Bereuter. Thank you, Mr. Rohrabacher. I like the new 
rapport and cohesion in the California delegation here. I would 
like to say on the latter that is one of the reasons I think 
Australia and New Zealand, the Philippines, and Malaysia are 
coming forth and being willing to pick up their load. It is a 
good example for Africa; it is a good example for Europe and 
elsewhere in the world.
    The gentleman from New York, Mr. Ackerman, is recognized.
    Mr. Ackerman. I am glad you guys can find common ground, 
albeit so far away.
    Thank you, Mr. Chairman and Mr. Lantos, for expediting this 
matter before the Subcommittee.
    Mr. Chairman, the world has watched in horror as militias 
supported by the Indonesian armed forces and members of the 
armed forces themselves have ravaged through East Timor 
following the vote for independence.
    What the world is witnessing, Mr. Chairman, is the abject 
failure of the government of Indonesia to abide by the 
commitment it made to the international community to allow the 
referendum and to provide security before, during and after the 
voting. It is now well past time for the international 
community to intervene in East Timor.
    I support the resolution we are considering today, and I am 
proud to be a cosponsor. I agree that we should suspend 
military assistance to Indonesia and that we should consider 
suspending economic assistance until such time as a United 
Nations force is fully deployed.
    In addition, Mr. Chairman, I think the international 
community should look seriously at the refugee camps being set 
up on the border in West Timor. We should work to ensure that 
these camps do not become cross-border bases of operation for 
those militias who would deny the East Timorese their 
independence.
    I commend the Chairman and Mr. Lantos for their work on the 
resolution, and I urge our colleagues to support it.
    Mr. Bereuter. Is there further discussion and are there 
amendments?
    Seeing none, the question now is on consideration on 
agreeing to the resolution. As many as are in favor will say 
aye; as many opposed, no.
    The ayes have it; the resolution is agreed to. Without 
objection, the staff is authorized to make technical, 
grammatical, and conforming changes to the text just agreed to.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]

</pre></body></html>
